No. 19-1221

In THE
Supreme Court of the Anited States

DERRICK LUCIUS WILLIAMS, JR,
Petitioner,
Vv.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Reply Brief for Petitioner in Williams v. United States, No.
19-1221, was served via electronic mail on all parties required:

Noel J. Francisco

SOLICITOR GENERAL

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

2 \ an

Date: July 7, 2020 Shay Dvoretzky
